No. 20-5075
IN THE

Supreme Court of the United States
JORGE HIRAM BÁEZ–MARTÍNEZ
v.
UNITED STATES OF AMERICA

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the
document contains 1,759 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d). I declare under penalty of
perjury the foregoing is true and correct. Executed on July 15, 2021.
S/FRANCO L. PÉREZ-REDONDO

Assistant Federal Public Defender
Federal Public Defender,
District of Puerto Rico
241 F.D. Roosevelt Ave.
San Juan, PR 00918
(787) 281-4922
Franco_Perez@fd.org
July 15, 2021

